August 4, 2010

TIMOTHY C. HANEY
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT:      Audit Report – Postal Vehicle Service Transportation Routes –
              Washington Network Distribution Center
              (Report Number NL-AR-10-007)

This report presents the results of our audit of the Washington Network Distribution
Center’s (NDC) Postal Vehicle Service (PVS) transportation (Project Number
10XG013NL001). Our objectives were to determine whether selected PVS vehicle
operations were effective and economical. The report is the eleventh in a series of
reports responding to a request from the U.S. Postal Service’s vice president, Network
Operations, for audit work in this area. See Appendix A for additional information about
this audit.

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is referred to as PVS. Management typically assigns
PVS vehicles and personnel to Postal Service network facilities, such as NDCs or
processing and distribution centers (P&DCs) in or near metropolitan areas. PVS
operations are normally conducted within 50 miles of the 154 Postal Service facilities
with PVS operations. In total, PVS drivers travel about 150 million miles every year.
Because PVS operations are local, they are managed at the facility level under
guidance from district, area, and headquarters transportation officials. PVS activities at
NDCs are limited to “yard operations,” which is the movement of trailers and equipment
in or around a facility yard.

Conclusion

The Washington NDC’s PVS operations were effective in moving trailers and
equipment. However, Washington NDC officials were not always effectively managing
PVS transportation since workhours assigned to yard activities did not match
established productivity standards for this function. This occurred because management
did not assess PVS workload and staffing requirements. We concluded that Washington
NDC management could phase out 6,968 workhours by following established
productivity standards and save about $2.8 million over 10 years without negatively
affecting service. See Appendix B for our detailed analysis of this topic.
Postal Vehicle Service Transportation Routes –                              NL-AR-10-007
 Washington Network Distribution Center



Management Action

Washington NDC management began taking action during our audit to make PVS
operations more effective by reducing some workhours and saving the Postal Service
money.

We recommend the vice president, Capital Metro Area Operations:

1. Verify the phasing out of 6,968 workhours that management agreed were in excess
   of the workload.

2. Ensure that Network Distribution Center managers periodically assess Postal
   Vehicle Service workload and staffing requirements to maintain appropriate staffing
   levels.

Management’s Comments

Management agreed with our findings and recommendations. As of July 30, 2010,
management confirmed the elimination of four spotter tractor driver positions from the
NDC transportation schedules in accordance with our recommendation and estimated a
savings of 7,040 in annual workhours. In addition, area management reissued
instructions to local managers to follow the Postal Service’s prescribed fleet
management procedures to ensure that NDC managers periodically assess PVS
workload and staffing requirements. Area management also intends to document NDC
compliance with procedures. See Appendix D for management’s comments in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 2
Postal Vehicle Service Transportation Routes –                              NL-AR-10-007
 Washington Network Distribution Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.
    E-Signed by James Ballard
 VERIFY authenticity with ApproveIt




for
Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    David E. Williams
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit Response Management




                                                 3
Postal Vehicle Service Transportation Routes –                                               NL-AR-10-007
 Washington Network Distribution Center




                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is referred to as PVS. Management typically assigns
PVS vehicles and personnel to Postal Service network facilities, such as NDCs or
P&DCs in or near metropolitan areas. PVS operations are normally conducted within 50
miles of the 154 Postal Service facilities with PVS operations. PVS drivers travel about
150 million miles every year. Because PVS operations are local, they are managed at
the facility level under guidance from district, area, and headquarters transportation
officials.




                           At the Washington NDC, as with all NDCs, PVS assets, such as
                             this spotter tractor, are primarily used for yard operations.
                                                      May 18, 2010.


PVS is capital and personnel intensive. PVS capital assets include approximately 1,900
cargo vans, 1,850 tractors, 400 tractor spotters, and 4,100 trailers. Employees service
and repair these vehicles at 319 Postal Service vehicle maintenance facilities (VMFs),
VMF1 auxiliaries, and local commercial garages nationwide. PVS currently involves
about 9,000 employees, including 7,919 uniformed drivers, 604 administrative support
personnel, and 812 managers. The American Postal Workers Union represents PVS
drivers and support personnel. PVS activities at NDCs are limited to “yard operations,”
which is the movement of trailers and equipment in or around a facility yard.


1
    A VMF Auxiliary is an extension of a VMF.




                                                             4
Postal Vehicle Service Transportation Routes –                                                   NL-AR-10-007
 Washington Network Distribution Center


OBJECTIVES, SCOPE, AND METHODOLOGY

The vice president, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our audit
approach. This report focuses on PVS operations at the Washington NDC in the Postal
Service’s Capital Metro Area. The objectives of our audit were to determine whether
PVS operations were effective and economical.

During our audit we visited the Washington NDC. We reviewed relevant Postal Service
policies and procedures, interviewed managers and employees, and observed and
photographed operations. We considered Surface Transfer Center (STC) operations
that were moved into the facility in November of 2009.

We obtained computer-generated data from Vehicle Tracking Analysis and
Performance System (VTAPS) that included a consecutive 17-week period from
October 1, 2009, through January 31, 2010. According to management, this data
represented the PVS yard operational workload for the period; however, it did not
include STC move data. Therefore, we gathered this data from management covering a
14-day period from May 18, 2010, through June 7, 2010, and included this with our
analysis. In total, we identified 32,597 yard moves. We examined this workload in
conjunction with previously established Postal Service productivity standards for NDC
PVS operations. We conducted the analysis to determine whether management could
reduce workhours and labor costs.




  The view from the inside of a PVS tractor at the        PVS driver yard operations are typically directed
         Washington NDC. May 18, 2010.                   electronically from VTAPS to the Janus unit in the
                                                                        tractor. May 18, 2010.

We conducted this performance audit from May through August 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our




                                                     5
Postal Vehicle Service Transportation Routes –                              NL-AR-10-007
 Washington Network Distribution Center


audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on July 1, 2010, and
management stated that the required action is already in progress. We included their
other comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, on a limited basis, we did compare the PVS yard operation activities
we recorded to data recorded in VTAPS and found the data reliable for the purposes of
our audit, but it did not include STC moves. Therefore, we adjusted our work by
requesting STC move data for May 18 through June 7, 2010. We also applied
conservative principles to our workhour and cost-reduction estimates.




                                                 6
Postal Vehicle Service Transportation Routes –                                         NL-AR-10-007
 Washington Network Distribution Center


PRIOR AUDIT COVERAGE

At the request of the vice president, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated by the chart below,
since March 2007, we have issued 10 audit reports that identified labor and other
potential savings exceeding $76.4 million. Management agreed with all of our
recommendations. This report used the same methodology and had comparable
findings.

                                                                                       Monetary
                                                         Report       Final Report      Impact
                  Report Title                           Number           Date       (in millions)
    Postal Vehicle Service Transportation
    Routes – Memphis Processing and                    NL-AR-07-003    3/30/2007              $7.3
    Distribution Center
    Postal Vehicle Service Transportation –
    Los Angeles Bulk Mail Center
                                                       NL-AR-07-006    9/21/2007               4.9
    Postal Vehicle Service Transportation
    Routes – Milwaukee Processing and                  NL-AR-07-007    9/27/2007               4.0
    Distribution Center
    Postal Vehicle Service Transportation
    Routes – San Francisco Processing and              NL-AR-08-003    3/26/2008              10.1
    Distribution Center
    Postal Vehicle Service Transportation
    Routes – Northern Virginia Processing              NL-AR-08-006    9/25/2008               8.0
    and Distribution Center
    Postal Vehicle Service Transportation
    Routes – Minneapolis Processing and                NL-AR-09-001    2/13/2009               9.3
    Distribution Center
    Postal Vehicle Service Transportation
    Routes – Philadelphia Bulk Mail Center
                                                       NL-AR-09-005    7/17/2009               4.3
    Postal Vehicle Service Transportation
    Routes – Philadelphia Processing and               NL-AR-09-006    7/20/2009               5.4
    Distribution Center
    Postal Vehicle Service Transportation
    Routes – Cardiss Collins Processing                NL-AR-10-002    12/28/2009             18.3
    and Distribution Center
    Postal Vehicle Service Transportation
    Routes – Southern Maryland Processing              NL-AR-10-06     7/14/2010               4.7
    and Distribution Center
                       Total                                                                $76.42




2
    Total slightly higher due to rounding difference




                                                           7
Postal Vehicle Service Transportation Routes –                                                       NL-AR-10-007
 Washington Network Distribution Center


                                  APPENDIX B: DETAILED ANALYSIS

Excess PVS Workhours and Associated Cost Reductions

Although Washington NDC PVS operations were effective in moving trailers and
equipment, management could make operations more effective by aligning workhours
to standards. We found Washington NDC PVS drivers were averaging about 27 moves3
per workday, while the established productivity standard average is 40 moves per
workday. Our observations of yard operations at the Washington NDC, as well as our
analysis of the operational workload data, confirmed that established productivity
standards were reasonable and attainable for PVS drivers at the facility.

In 2005, the Postal Service’s Breakthrough Productivity Initiative established
productivity standards for NDC PVS operations specifying that drivers (tractor-trailer
operators) are expected to complete 40 trailer moves within an 8-workhour period.
Thus, one driver can accomplish 200 trailer moves within an NDC yard during a 40-hour
work week. Headquarters and senior area transportation managers have explained that
this productivity standard was reasonable and conservative.

The Washington NDC did not achieve productivity standards because NDC managers
did not assess workload and staffing requirements. If productivity was improved, we
concluded the Capital Metro Area could phase out about 6,968 annual workhours
associated with PVS operations and save about $2.8 million over 10 years. We
discussed this with management on July 1, 2010, and they began taking action during
our audit to make PVS operations more effective and economical by reducing some
workhours and saving the Postal Service money.




3
    A move consists of moving trailers and equipment from one location to another in the NDC yard.




                                                           8
Postal Vehicle Service Transportation Routes –                                                           NL-AR-10-007
 Washington Network Distribution Center


                                 APPENDIX C: MONETARY IMPACTS


Excess PVS Workhours and Associated Cost Reduction Findings

We employed a 10-year cash flow methodology, discounted to present value by
applying the following factors published by Postal Service Headquarters Finance.


                             Impact Category – Funds put to better use

    Cost Category                 FY 2011 Total4               FY 2012 (Annual)                10-Year Total5
                                   (Phased in)                      Total                    (FYs 2011 to 2020)
Personnel                                $271,880                       $304,214                    $2,791,3496


                                           Rates by Type7                    Factor
                                  Discount Rate/Cost of Borrowing            3.875%
                                  Labor Escalation Rate                       1.7%




4
  Our FY 2011 figures are conservative to allow for phase-in of workhour reductions during the year.
5
  The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.
6
  We analyzed total workload at the facility and applied established productivity standards of 40 moves per hour.
Based on our analysis, we identified a total reduction of 6,968 hours that could be achieved if standards were met
without affecting operations. We then applied appropriate labor rates for PVS drivers to the identified hours to arrive
at our projected amount of $2,791,349. Management agreed with our recommended reduction.
7
  Rates published May 7, 2010.




                                                           9
Postal Vehicle Service Transportation Routes –              NL-AR-10-007
 Washington Network Distribution Center



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                 10
